              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




   Audit Report

Report On Management Controls
Over Subcontract Administration at
the National Security Laboratories




OAS-M-04-06                          August 2004
REPORT ON MANAGEMENT CONTROLS OVER
SUBCONTRACT ADMINISTRATION AT THE NATIONAL
SECURITY LABORATORIES
______________________________________________________



TABLE OF
CONTENTS


                    Subcontract Administration

                    Details of Finding ................................................... 1

                    Recommendations and Comments........................ 6

                    Appendices

                    1. Prior Audit Reports ........................................... 8

                    2. Objective, Scope, and Methodology ................. 9

                    3. Management Comments ................................. 11
SUBCONTRACT ADMINISTRATION

Managing the     The National Nuclear Security Administration's (NNSA) Los
Subcontracting   Alamos National Laboratory (Los Alamos), Lawrence Livermore
Process          National Laboratory (Livermore), and Sandia National
                 Laboratories (Sandia) did not always effectively manage all
                 aspects of the subcontract administration process. Specifically,
                 certain Laboratories did not always perform needed subcontract
                 audits, closeout completed subcontracts, or resolve questioned
                 costs.

                                        Assurance through Audits

                 While we noted that Sandia provided subcontract audit coverage,
                 Livermore and Los Alamos did not always seek or provide
                 assurance regarding the propriety of subcontract costs. In
                 particular, the Sandia Contract Audit Department performed pre-
                 award, interim, and closeout subcontract audits. In contrast, Los
                 Alamos and Livermore, both managed by the University of
                 California, did not always arrange for or otherwise ensure that
                 audits were performed of their subcontractor's records, operations,
                 and transactions with respect to costs claimed. Specifically:

                       •   Los Alamos did not perform any type of audit (pre-
                           award, interim, closeout) on 11 subcontracts for which
                           the period of performance had ended. These subcontracts
                           were valued at $68 million and were closed by
                           procurement officials during Fiscal Years (FY) 2001 and
                           2002. Furthermore, out of a sample of 93 active
                           subcontracts valued at $1.3 billion, only two interim
                           audits were completed. During our audit, Los Alamos
                           officials informed us that they recognized that audit
                           coverage was not sufficient. Consequently, Los Alamos
                           initiated corrective actions to increase the contract audit
                           staff and is developing processes to ensure that audits are
                           performed as needed.

                       •   In lieu of conducting audits of its subcontracts, Livermore
                           elected to perform cost/price analytical reviews. While
                           such an approach is normally considered acceptable for
                           low-dollar value and fixed-price instruments, based on
                           information obtained from other Departmental
                           contractors and Federal sources, it is generally not
                           appropriate for larger cost-type subcontracts. We took
                           exception to Livermore's reviews because, unlike an
                           audit, they did not determine whether internal controls
                           over the subcontractors' costs were proper or were in


Page 1                                                                Details of Finding
                  place and operational. Because of the impracticability of
                  auditing all subcontract expenditures, reviews of control
                  systems are, in our opinion, important for preventing or
                  detecting improper or fraudulent charges in a timely
                  manner. Furthermore, Livermore's reviews were not
                  performed by a group that was organizationally
                  independent.

                  Livermore management, in commenting on a draft of our
                  report, did not agree with our observations. Rather, they
                  indicated that an efficient internal system of reviews was
                  utilized for low dollar value subcontracts (less than
                  $1 million) and external government agencies were
                  utilized for subcontracts over $1 million. Livermore also
                  planned to enhance organizational independence by
                  having the Livermore Audit and Oversight Department
                  perform peer reviews of the subcontract review function
                  and ensure that all cost disputes are appropriately
                  addressed. We found, however, that 26 of 81
                  subcontracts individually valued at over $1 million were
                  actually not audited by external government agencies but
                  by Livermore's internal review function. We examined a
                  limited number of these subcontract reviews and found
                  that they did not include steps to thoroughly evaluate
                  internal controls. In addition, through an examination of
                  review/audit programs and interviews with Livermore's
                  staff, we confirmed that organizational independence
                  impairments existed due to the subcontract administration
                  reporting structure. Specifically, Livermore's
                  procurement manager is responsible for both the review
                  function and subcontract administration.

                               Subcontract Closeouts

         All three Laboratories did not effectively close out completed
         subcontracts in a timely manner. Completed subcontracts are those
         subcontracts for which the period of performance has ended.
         Furthermore, the subcontract closeout process was not coordinated
         among the departments involved (i.e. contract audit, procurement,
         accounts payable, accounts receivable). For example, we found
         instances where the final subcontract audit had been performed but
         the procurement department had not taken the necessary steps to
         ensure that the subcontract was closed within the procurement
         system. Additionally, we found instances where the procurement



Page 2                                                  Details of Finding
         department had significantly delayed the initiation of the closeout
         process upon subcontract completion.


         Based on information developed during related Office of Inspector
         General audits of subcontracting activities at other Departmental
         contractors, we determined that an appropriate benchmark for
         subcontract closeout was within three years after the period of
         performance had ended. As of the end of FY 2002, the three
         Laboratories had a total of 287 subcontracts that had not been
         closed out in a timely manner. Specifically:

              •   Los Alamos had 38 completed subcontracts awaiting
                  closeout for three years or more. Los Alamos officials
                  stated that they did not have the management reporting
                  tools in place to effectively monitor the status of
                  completed subcontracts. Furthermore, Los Alamos
                  procurement could not readily determine the total number
                  of final subcontract audits they had received, questioned
                  costs that had been resolved, or costs that required
                  resolution prior to subcontract closeout.

              •   Similarly, we found that Livermore had 90 completed
                  subcontracts awaiting closeout for three years or more.
                  Although Livermore was not required to follow the three-
                  year benchmark, it adopted it as a means to monitor
                  subcontract closeouts. An official acknowledged that, in
                  some cases, Livermore had not initiated the closeout
                  process even after the three-year window had passed.
                  However, the same official indicated that the Laboratory
                  had recently developed a pre-closeout metric to ensure
                  that the process is initiated within 90 days of subcontract
                  completion.

              •   Sandia also had 159 completed subcontracts that had
                  been awaiting closeout for at least three years. An
                  official explained that they did not perform closeout
                  audits on 93 of the subcontracts because they were
                  considered to be low risk. While audits were performed
                  on the remaining 66 subcontracts, none of the 159 were
                  formally closed in the procurement system. We learned
                  that problems we discovered were not unique and had
                  been previously reported by Sandia's Internal Audit
                  Department in July 2003. That report disclosed that
                  management had not established adequate controls to
                  formally close 153 completed contracts – in which close-



Page 3                                                    Details of Finding
                        out audits were performed – valued in excess of $54
                        million. Sandia management officials concurred with that
                        audit finding and told us that they have implemented a
                        manual system to track and monitor the status of
                        completed subcontracts. An electronic system is under
                        development.

               These issues are similar to those observed during our Audit on
               Subcontract Administration by the National Renewable Energy
               Laboratory (OAS-M-04-02, March 19, 2004). During that audit,
               we found that completed subcontracts were awaiting closeout for
               at least 3 and sometimes longer than 15 years.

                                        Unresolved Costs

               Sandia and Los Alamos did not resolve questioned costs identified
               in a number of subcontract audits. Our evaluation of 68
               subcontract audits disclosed that contract auditors questioned about
               $13.5 million in costs, $12.9 million at Los Alamos and $600,000
               at Sandia. However, their respective procurement departments
               could only confirm that a total of $3.5 million of the questioned
               costs had been resolved. For example, a Sandia subcontract audit
               report dated May 2002 questioned costs totaling about $111,000,
               yet the Contract Administrator could not determine whether the
               costs were ultimately resolved. At Livermore, questioned costs
               were identified on a contract-by-contract basis. As a result, we
               were unable to determine a total amount of questioned costs or
               whether the costs had been resolved. To their credit, the
               Laboratories recognized the need to track the resolution of
               questioned costs at a summary level and are implementing
               mechanisms to accomplish this task.

               After reviewing a draft of our report, Los Alamos management
               told us that only $387,000 of the remaining questioned costs were
               still unresolved. However, despite our request, Los Alamos
               officials were unable to provide documentary evidence that any of
               the remaining questioned costs were resolved or were in
               negotiation.

Management     The Laboratories did not always properly administer the
Controls and   subcontract audit and closeout process or effectively recover
Guidance       unallowable costs because they lacked appropriate controls. For
               example:




Page 4                                                         Details of Finding
                            •    With a staff of four auditors, the Los Alamos Contract
                                 Audit Department did not have adequate resources to
                                 perform subcontract audits;

                            •    Sandia and Los Alamos lacked established formal
                                 procedures or training regarding cost resolution and both
                                 lacked tracking mechanisms to ensure that questioned
                                 costs were resolved; and,

                            •    While the Laboratories had some subcontract closeout
                                 procedures in place, such procedures lacked specific
                                 detail and were not integrated among all departments
                                 responsible for subcontract administration. For example,
                                 Sandia procedures did not ensure that all departments
                                 involved in the subcontract closeout process were fully
                                 cognizant of actions they were required to complete.
                                 Sandia recognized this inadequacy and has recently
                                 implemented an integrated tracking mechanism.

                      Livermore did not perform subcontract audits because it believed
                      that the contract with the Department was vague regarding the
                      level of audit effort required for subcontracts. As previously
                      stated, Livermore elected to perform cost/price analytical reviews
                      instead.

                      NNSA had not developed and incorporated specific performance measures
                      related to subcontract administration in the Laboratories' contracts. While
                      measures were in place to annually perform high-level reviews of the
                      Laboratories' procurement systems, they did not specifically address the
                      subcontract administration process. NNSA's Director of Procurement and
                      Assistance Management informed us that due to general concerns over the
                      Laboratories' subcontract administration, NNSA plans to establish a Peer
                      Review Program that will assess whether its contractors have adequate
                      purchasing systems.

Benefits of           Without full and adequate subcontract reviews, NNSA does not
Increased Assurance   have assurance that all costs reimbursed to Los Alamos,
                      Livermore, and Sandia for their subcontracts are allowable. Unless
                      and until needed audits and other close-out procedures are
                      performed for the 287 subcontracts discussed in our report,
                      remaining unexpended funds provided to subcontractors may not
                      be recovered and put to better use. Furthermore, at least
                      $10 million in questioned costs that remain unresolved are not
                      available to satisfy other mission needs.




Page 5                                                                         Details of Finding
RECOMMENDATIONS   We recommend that the Director of Procurement and Assistance
                  Management, NNSA, take action to improve subcontract
                  administration at its National Security Laboratories. Specifically:

                       1. Require the development and implementation of detailed
                          subcontract administration guidance or procedures that
                          are integrated among the organizations responsible for
                          audit coverage, close-out procedures, and resolution of
                          question costs for subcontracts;

                       2. Ensure that the Laboratories:

                              (a) Establish tracking mechanisms for questioned cost
                                  resolution,

                              (b) Develop and implement training related to the
                                  subcontract audit and closeout process; and,

                       3. Develop and implement subcontract administration
                          related performance measures that focus on the issues
                          addressed in our report for contractors under its purview.

MANAGEMENT        Although management agreed that tracking mechanisms and on-
REACTION          going training were needed, they generally disagreed with the
                  recommendations. Specifically, management disagreed with
                  recommendations to develop additional guidance, procedures, or
                  subcontract administration related performance measures. Rather,
                  management stated that a more consistent application of existing
                  guidance and/or procedures was needed. Additionally, NNSA
                  stated that it was increasing its reliance on contractor assurance
                  processes, which required contractors to directly address issues in
                  the most efficient and effective manner possible with limited
                  resources. Management comments are included in their entirety in
                  Appendix 3.

AUDITOR           We acknowledge that the Laboratories currently have procedures
COMMENTS          or desk guides that relate to subcontract administration. However,
                  in our judgment, integrated detailed guidance or procedures among
                  all departments involved in the subcontract administration process
                  (i.e. contract audit, procurement, accounts payable, accounts
                  receivable) could help address the issues discussed in our report.
                  Further, we believe that the implementation of performance




Page 6                                        Recommendations and Comments
         measures would ensure that the Laboratories responsible for
         subcontract administration are held accountable, especially since
         NNSA has placed an emphasis on increasing reliance on contractor
         assurance processes.

         Although management disagreed with our recommendation to
         develop guidance, we learned that two of the Laboratories recently
         integrated standard procedures or were planning to develop
         processes to address audit coverage, closeout, and the resolution of
         questioned costs. Sandia has updated its policies and procedures to
         require specific closeout documents and a coordinated interface
         between the contract administrator, contract auditor, and the
         subcontractor. Sandia has also implemented an integrated process
         for monitoring the contract closeout process among the
         organizations responsible for subcontract administration.
         Livermore plans to address independence issues by having its
         internal Audit & Oversight Department perform peer reviews of
         the subcontract review function on a cyclical basis. That same
         organization will also obtain copies of all significant closeout
         reports to ensure that contract cost disputes are appropriately
         addressed. Further, Livermore plans to develop procedures for
         audit coverage, closeout and questioned cost resolution.

         We made adjustments to our report based on technical comments
         obtained from each of the Laboratories. We discussed the report
         findings with Livermore, Los Alamos, and Sandia on March 17,
         2004, and NNSA subsequently waived an exit conference.




Page 7                               Recommendations and Comments
Appendix 1
______________________________________________________________________

                                       PRIOR AUDIT REPORTS

•   Audit on Management Controls over Subcontract Administration by the National Renewable Energy Laboratory
    (NREL) (OAS-M-04-02, March 19, 2004). The audit report revealed that NREL did not always adequately
    protect Government property in the hands of its subcontractors, and did not ensure that the Government's
    financial position was protected by closing out subcontracts in a timely manner. Specifically, the audit
    identified that NREL had not de-obligated as much as $3 million of unexpended funds that may be available, or
    recovered at least $2.9 million in property associated with completed or expired contracts.

•   Audit on Management Controls over Subcontract Administration by the Argonne National Laboratory (OAS-
    M-04-01, March 12, 2004). The audit report found that the laboratory relied heavily on sole source
    procurements without adequately supporting their use, and Government property acquired by subcontractors
    was not always protected.

•   University of California's Costs Claimed and Related Internal Controls for Operation of Los Alamos National
    Laboratory (DOE/IG-0596, April 2003). The audit found internal control weaknesses in the laboratory's audit
    function, its financial system reconciliation, payroll and travel approval processes, financial management
    personnel turnover and financial system review and approval. The audit report also identified a significant
    backlog in the completion of required audits of laboratory contracts.




Page 8                                                                                 Prior Audit Reports
Appendix 2
______________________________________________________________________

OBJECTIVE            To determine whether NNSA Laboratories were effectively
                     administering subcontracts.

SCOPE                The audit was performed from June 2003 to March 2004, at the
                     NNSA Service Center in Albuquerque, NM; Sandia National
                     Laboratories in Albuquerque, NM; Los Alamos National
                     Laboratory in Los Alamos, NM; and Lawrence Livermore
                     National Laboratory in Livermore, CA. The scope of the audit
                     covered the Laboratories' subcontract administration process from
                     FY 2001 through FY 2002. This included subcontract audits
                     issued and performed by the Sandia and Los Alamos Contract
                     Audit Departments and reviews performed by the Livermore
                     Subcontract Review function during that period. The audit work
                     included a review of completed subcontracts awaiting closeout.

METHODOLOGY          To accomplish the audit objective, we:

                          •   Interviewed NNSA/Albuquerque, Lawrence Livermore
                              National Laboratory, Los Alamos National Laboratory,
                              and Sandia National Laboratories personnel;

                          •   Reviewed the contract audit functions at each Laboratory
                              to determine if subcontract audits were being performed;

                          •   Reviewed contract audit workpapers to determine if all
                              material findings were reported;

                          •   Determined the total subcontractor costs questioned by
                              the Contract Audit Department at Sandia and Los Alamos
                              and, for a selected sample, tested for resolution of the
                              questioned costs;

                          •   Determined subcontract closeout backlogs at each
                              Laboratory; and,

                          •   Reviewed prior audit reports related to the audit
                              objective.


                     We conducted the audit according to generally accepted
                     Government auditing standards for performance audits and
                     included tests of internal controls and compliance with laws and
                     regulations to the extent necessary to satisfy the audit objective.
                     Because our review was limited, it would not necessarily have
                     disclosed all internal control deficiencies that may have existed at


Page 9                                           Objective, Scope, and Methodology
Appendix 2
______________________________________________________________________
                      the time of our audit. We did not rely on computer processed data
                      to accomplish our audit objectives. We discussed our findings
                      with NNSA and Laboratory officials on March 17, 2004. NNSA
                      subsequently waived an exit conference.




Page 10                                            Objective, Scope, and Methodology
                                                                    IG Report No. OAS-M-04-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
